<html>
<title> - ADVANCING NUCLEAR ENERGY: POWERING THE FUTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                       ADVANCING NUCLEAR ENERGY:
                          POWERING THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-75

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                             _________
 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
32-516 PDF                 WASHINGTON : 2019             
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
RALPH LEE ABRAHAM, Louisiana         JERRY McNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
DANIEL WEBSTER, Florida              PAUL TONKO, New York
ANDY BIGGS, Arizona                  BILL FOSTER, Illinois
ROGER W. MARSHALL, Kansas            MARK TAKANO, California
NEAL P. DUNN, Florida                COLLEEN HANABUSA, Hawaii
CLAY HIGGINS, Louisiana              CHARLIE CRIST, Florida
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
MICHAEL CLOUD, Texas
TROY BALDERSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
GARY PALMER, Alabama                 JERRY McNERNEY, California
DANIEL WEBSTER, Florida              PAUL TONKO, New York
NEAL P. DUNN, Florida                BILL FOSTER, Illinois
RALPH NORMAN, South Carolina         MARK TAKANO, California
MICHAEL CLOUD, Texas                 EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           September 27, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    10
    Written Statement............................................    12

Written Statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    14

                               Witnesses:

Mr. Edward McGinnis, Principal Deputy Assistant Secretary for 
  Nuclear Energy, U.S. Department of Energy
    Oral Statement...............................................    16
    Written Statement............................................    18

Mr. Harlan Bowers, President, X-energy
    Oral Statement...............................................    22
    Written Statement............................................    24

Dr. John Parsons, Co-Chair, MIT Study on the Future of Nuclear 
  Energy in a Carbon-Constrained World
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. John Wagner, Associate Laboratory Director, Nuclear Science & 
  Technology, Idaho National Laboratory
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion.......................................................    47

             Appendix I: Answers to Post-Hearing Questions

Mr. Edward McGinnis, Principal Deputy Assistant Secretary for 
  Nuclear Energy, U.S. Department of Energy......................    70

Mr. Harlan Bowers, President, X-energy...........................    74


             ADVANCING NUCLEAR ENERGY: POWERING THE FUTURE

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recess of the Subcommittee at any time.
    So welcome to today's hearing entitled ``Advancing Nuclear 
Energy: Powering the Future.'' I recognize myself for five 
minutes for an opening statement.
    Today, we're going to hear from a panel of experts on 
advanced nuclear energy research in the United States and 
discuss what we can do as a nation to advance this critical 
area of science. We'll also discuss the implementation of my 
bill, S. 97, the Nuclear Energy Innovation Capabilities Act.
    Nuclear energy, as we all would agree I believe, is a 
critical part of U.S. energy security. Currently, the 99 
nuclear power plants in the United States operating fleet 
generate about 20 percent of the total electrical output in the 
United States. Nuclear also provides 60 percent of our 
emissions-free electricity.
    Unfortunately, our commercial nuclear fleet today is made 
up entirely of light-water nuclear reactor designs using 
traditional nuclear fuels. Coupled with a long regulatory 
process, these reactors have become too big, too expensive, and 
too risky for utilities to undertake. So that means our nuclear 
fleet is dwindling at the exact moment when we need it to grow. 
You don't need to look further than this week's news to see the 
hurdles facing those attempting to build new traditional 
nuclear plants in this country.
    However, advanced nuclear reactors are positioned to change 
the way nuclear power is sourced, produced, and managed. 
Decades of early-stage nuclear research conducted at the DOE 
national labs and renewed investment by private companies are 
breathing new life into this industry.
    As we drafted our nuclear legislation, we met with dozens 
of these stakeholders working to develop unique and innovative 
reactor designs. What we heard over and over again was that, 
despite federal and industry investment, a significant number 
of research challenges remain for these reactor technologies 
before they are ready for the commercial license application 
process. We believe that my bill, S. 97, will help address 
these challenges. This bill directs DOE to partner with 
industry to construct and operate reactor prototypes at DOE 
national labs, and authorizes key research infrastructure 
needed for next-generation nuclear R&D.
    We know that DOE has the expertise to lead in this arena. 
After all, researchers at Idaho National Laboratory (INL) have 
designed and constructed 52 pioneering nuclear reactors to 
date. Our national labs provide a unique environment that 
safely allows for testing and development of advanced nuclear 
technology without a burdensome regulatory process that can 
slow progress to an absolute crawl.
    While modeling and simulation can speed research, nuclear 
fuels and technologies must be validated through direct 
experimentation in the lab. That's why the cornerstone of this 
bill is the authorization of construction of the Versatile 
Neutron Source, a research reactor capable of producing the 
fast neutrons needed to test so many of those advanced reactor 
designs.
    I look forward to hearing from the Department and from 
Idaho National Lab today on what steps have been taken to 
accelerate construction of this critical research facility. In 
order to maintain our leadership in nuclear power, the United 
States must continue developing cutting-edge technology right 
here at home. We cannot afford to miss the economic opportunity 
provided by the next generation of nuclear technology, and we 
cannot let our best scientists and engineers go overseas.
    Through the implementation of S. 97, we will also 
strengthen America's ability to influence security and 
proliferation standards around the world as more and more 
developing nations look to nuclear energy to help grow their 
economies. I believe that with their diverse size and power 
capabilities, advanced nuclear reactors could also bring clean, 
affordable power to the most remote areas of the world. We have 
a responsibility to make sure that these reactors are safe and 
reliable.
    I want to thank Ranking Member Johnson and Chairman Smith 
for their years of leadership in advocating for nuclear energy 
R&D, and for helping to get our bill to the President's desk. 
As always, I'm very grateful for the opportunity to work 
alongside my Science Committee colleagues and Senate 
counterparts to prioritize fundamental research that will 
support nuclear innovation while keeping Americans safe, 
independent, and globally competitive.
    Today, we will also hear about the next steps for nuclear 
R&D. Whether it's focusing on fuels research or expanding lab 
capabilities, there will be more work to do to ensure we 
encourage innovation and make smart investments with Americans' 
tax dollars. I hope we can continue to work together on these 
issues in the years ahead.
    I want to thank the witnesses in advance for their 
testimony, and I'm looking forward to a productive discussion 
about how to best take advantage of this exciting and pivotal 
moment for advanced nuclear technology in the United States.
    [The prepared statement of Chairman Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
    Chairman Weber. I now recognize the Ranking Member.
    Mr. Veasey. Mr. Chairman, thank you very much for holding 
this hearing, and I really want to thank the panelists, too. We 
have an esteemed group of panelists that have joined us this 
morning to talk about a very important subject, and that is the 
future of an advanced nuclear industry, an industry that may 
well be a player in realizing our goal of a less-carbon-energy 
future.
    Historically, nuclear energy has faced a number of 
challenges, including high costs, long construction times, and 
safety concerns. However, in recent years, new design concepts 
and technologies have emerged with a focus on addressing these 
and other common concerns with nuclear energy.
    Advanced nuclear reactor designs have a number of benefits 
over the current generation of nuclear reactors. They 
incorporate passive safety features that prevent accidents due 
to human error. They have much lower waste and use nuclear fuel 
much more efficiently, and they can be manufactured in 
factories instead of onsite, reducing costs and shortening 
construction times.
    These new designs could disrupt the U.S. energy portfolio, 
but for that to happen, we need to make the right investments, 
and that's why I'm pleased that Democratic and Republican 
Members of Congress came together earlier this month to pass 
the Nuclear Energy Innovation Capabilities Act. This bipartisan 
bill will provide the tools and resources that our scientists 
and engineers in government, academia, and industry need for us 
to be the world leader in producing the next generation of 
nuclear power plant.
    This bill authorizes a new user facility that researchers 
and entrepreneurs will be able to use to test and develop new 
fuels and materials for novel nuclear reactor designs. It also 
supports investments in high-performance computing to help 
accelerate R&D of advanced nuclear reactors without the need 
for costly and premature investments in physical 
infrastructure.
    And lastly, this bill authorizes a cost-share program with 
industry to help offset the substantial price of licensing 
these first-of-a-kind reactors with the Nuclear Regulatory 
Commission, which is currently considered to be a major barrier 
to ultimately deploying these advanced technologies.
    Beyond the implementation of this bill, I'm looking forward 
to the testimony of all of our witnesses here today to discuss 
other issues and ideas that Congress should consider as we aim 
to accelerate the development of the advanced nuclear industry. 
I'm especially interested in hearing from Dr. Parsons, who 
brings a unique big-picture view of the challenges that the 
industry is currently facing, as well as the potential for 
advanced nuclear energy to enable our clean-energy future.
    And thank you, Mr. Chairman, and I want to yield back the 
balance of my time.
    [The prepared statement of Mr. Veasey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Weber. Thank you. I'm going to make the next 
introduction for the next opening statement, but before I do, I 
want to exercise a personal privilege. The gentleman from Texas 
that I'm about to introduce is going to be leaving us at the 
end of this session, and I want to say that he has been a 
leader among leaders. He has been an absolute brilliant 
Chairman on more than one committee. He's thoughtful, he's 
focused, he's been good for America. Please help me in 
congratulating Chairman Lamar Smith.
    [Applause.]
    Chairman Smith. Thank you, Mr. Chairman. That was not 
expected.
    Chairman Weber. Well, I haven't recognized you yet.
    Chairman Smith. And I appreciate your spreading those nice 
rumors. You've set a high standard, and I just have to come 
part way to achieving those, but many, many thanks.
    Also, thanks to the witnesses for taking the time to be 
here as well.
    Today, we will hear about the implementation of Science 
Committee legislation, S. 97, the Nuclear Energy Innovation 
Capabilities Act, which just two weeks ago unanimously cleared 
the House for the President's signature. Nuclear fission has 
been a proven source of safe and emission-free energy for over 
half a century. As this Committee has repeatedly heard, 
advanced nuclear energy technology is the best opportunity to 
make reliable, safe, and emission-free power available 
throughout the modern and developing world. This new nuclear 
power technology represents one of the most promising areas for 
growth and innovation, increasing economic prosperity and 
lowering the cost of electricity over time.
    Because of technical challenges and the high regulatory 
costs associated with licensing commercial reactors, the DOE 
national laboratory system plays an important role in 
supporting nuclear innovation. National labs can host critical 
research infrastructure, while DOE researchers can investigate 
the fundamental scientific questions that are key to the 
development of next-generation nuclear fuels and reactor 
designs. This approach maximizes the impact of federal research 
dollars and facilitates the development of a wide variety of 
nuclear technologies.
    The Science Committee's legislation, S. 97, prioritizes 
infrastructure and early-stage nuclear R&D. The bill leverages 
DOE's state-of-the-art supercomputers to accelerate the 
development of advanced reactors. It also creates a reliable 
mechanism for the private sector to partner with DOE labs. This 
allows industry to build prototype reactors at DOE sites and 
creates another pathway for American nuclear entrepreneurs to 
move innovative reactor technology to market. Most importantly, 
the bill authorizes construction of a research reactor--or 
Versatile Neutron Source--at a DOE site. The safe development 
of advanced nuclear technology at DOE sites will provide access 
to DOE resources and expertise and fast-track the regulatory 
process.
    After four years of bipartisan collaboration, I'd like to 
thank my colleagues, particularly Energy Subcommittee Chairman 
Randy Weber, Ranking Member Marc Veasey, and Science Committee 
Ranking Member Eddie Bernice Johnson, for their initiative on 
this subject.
    It is critical that we develop the next generation of 
nuclear reactors here at home. Our witnesses today can provide 
guidance on the next steps Congress should take to ensure 
American innovators have the tools they need to develop this 
groundbreaking technology.
    I look forward to hearing about the ways in which DOE and 
the national labs plan to implement this legislation, and how 
we can continue to build on the history of American leadership 
in nuclear power.
    Thank you, Mr. Chairman, and yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Weber. Thank you, Mr. Chairman.
    Our first witness today is Mr. Edward McGinnis, the 
Department of Energy's Principal Deputy Assistant Secretary for 
the Office of Nuclear Energy. He's from New Orleans. Prior to 
his current role, he served as the Deputy Assistant Secretary 
for International Nuclear Energy Policy and Cooperation, which 
included the role of Steering Group Chairman of the 
International Framework for Nuclear Energy Cooperation. Mr. 
McGinnis has also served as a Vice Chairman and a Principal 
United States Representative to the Generation IV International 
Forum. Mr. McGinnis has also served as a Senior Advisor and 
Special Assistant to four Assistant Secretaries and Deputy 
Administrators for Nonproliferation and National Security at 
the Department of Energy.
    He holds a master's degree from the American University 
School of International Service and is a graduate of the 
Kennedy School's Senior Executive Fellows Program, as well as 
the program for Senior Executives in National and International 
Security at Harvard University. Welcome, Mr. McGinnis.
    Our next witness is Mr. Harlan Bowers. Am I saying that 
right?
    Mr. Bowers. You are correct.
    Chairman Weber. Okay. I didn't know how to say Harlan--the 
President of X-energy, a privately held company based in 
Greenbelt, Maryland. Previously, Mr. Bowers served multiple 
roles, including the Senior Vice President of Business 
Development, the Vice President and Program Manager at Stinger 
Ghaffarian Technologies, or SGT. Much of his background has 
involved aerospace systems projects with NASA and commercial 
customers.
    Mr. Bowers received a bachelor of science in aerospace and 
ocean engineering from Virginia Tech and an MBA from the 
University of Maryland College Park. Welcome, Mr. Bowers.
    Our next witness is Dr. John Parsons, the Co-Chair of 
Massachusetts Institute of Technology, MIT, Study on the 
``Future of Nuclear Energy in a Carbon-Constrained World,'' 
very timely. Additionally, he is the head of the MBA finance 
track, Co-Director of MIT's CANES Low-Carbon Energy Center, and 
an affiliate of the MIT Center for Energy and Environmental 
Policy Research. Previously, he worked as Vice President and 
Principal at the economics consulting firm CRA International.
    Dr. Parsons holds a bachelor of arts in economics from 
Princeton University and a Ph.D. in economics from Northwestern 
University. Welcome, Dr. Parsons.
    Our final witness is Dr. John--is it Wager? This says Wager 
but you have an extra N in your name.
    Dr. Wagner. It's Wagner.
    Chairman Weber. It is Wagner. Thank you. I apologize for 
that. You're the Associate Laboratory Director of Idaho 
National Lab's Nuclear Science and Technology, NS&T 
Directorate. His previous roles included Director of Domestic 
Programs at NS&T and Director of the Technical Integration 
Office for the DOE Office of Nuclear Energy's Light Water 
Reactor Sustainability Program at INL. Dr. Wagner initially 
joined INL as the Chief Scientist at the materials and fuel 
complex. He is a fellow of the American Nuclear Society and 
recipient of the 2013 E.O. Lawrence Award. Congratulations. He 
has authored or coauthored more than 170 referred--is it 
referred?
    Dr. Wagner. Refereed.
    Chairman Weber. Refereed. Why, that's amazing that they 
referee that stuff, isn't it? We probably could use some 
referees up here in Congress. I'm just saying, okay? Refereed 
journal and conference articles, technical reports, and 
conference summaries.
    Dr. Wagner received his bachelor of science in nuclear 
engineering from the Missouri University of Science and 
Technology and master of science and Ph.D. degrees from 
Pennsylvania State University. Welcome, Dr. Wagner.
    I want to say thank you to all of you all for being here, 
and we're going to start with Mr. McGinnis. And, Mr. McGinnis, 
you have five minutes. You're recognized to start. Thank you.

               TESTIMOMY OF MR. EDWARD MCGINNIS,

              PRINCIPAL DEPUTY ASSISTANT SECRETARY

                      FOR NUCLEAR ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. McGinnis. Thank you, Mr. Chairman. I greatly appreciate 
the opportunity to speak before this subcommittee.
    Chairman Smith, Subcommittee Chairman Weber, and other 
Members of the Subcommittee, it is an absolute privilege to be 
here today, and we want to recognize the leadership of this 
Subcommittee, of the committee for your important work, 
including with this legislation.
    As a major source of reliable, clean, baseload electricity, 
nuclear energy is a key asset for the United States. It is in 
fact an essential element of the nation's diverse energy 
portfolio, helping to sustain the U.S. economy and support our 
national goals. A strong domestic nuclear industry enabled by 
the existing nuclear fleet and enhanced by innovative 
technology developers is critical to our national security 
interests as well.
    Today, nuclear energy is the third-largest source of 
domestic electricity generation and is the largest source of 
clean energy, as you indicated, Mr. Chairman. Besides providing 
reliable clean baseload electricity, nuclear power plants also 
provide price stability. That is an important but rarely talked 
about attribute. Nuclear power plants serve as bedrocks to 
communities across the country, providing high-paying, skilled 
generational jobs to almost half a million Americans.
    The U.S. nuclear fleet is also a significant contributor to 
the federal budget and generates $10 billion in federal taxes, 
$2.2 billion in state taxes each year. These units are drivers 
of local economies as well, often serving as the largest 
employer and economic engine of small communities, anchors to 
communities in fact.
    Even with all of these benefits, however, the nuclear 
energy sector is indeed undergoing a major transformative 
period of time due to a variety of factors that include 
changing and very challenging market conditions, an aging fleet 
of reactors, and an absence of nuclear energy product choices 
and innovative business/technology deployment models available 
to customers. In my view, these factors are actually driving 
the transformative bow wave of highly innovative technologies, 
one of which is represented here today on this panel, advanced 
additive manufacturing techniques, and new innovative business 
models coming out of the U.S. nuclear energy sector.
    So what do I mean when I say the nuclear sector lacks 
product choice? Today, utility customers and communities around 
the United States, who may be interested in acquiring nuclear 
energy's long-term clean and reliable source of power for their 
communities, are faced with a rather startling limited choice 
of only large or larger reactors. These large reactors can take 
five to ten years to build before generating revenue from power 
production. So additionally, many international markets find 
these gigawatt-class reactors as simply too large for their 
electricity grids. As long as there are only large and larger 
reactors, the nuclear energy reactor markets in my view will 
remain substantially constrained relative to nuclear energy's 
true market potential.
    So what do we do--what do we see happening to respond to 
this lack of product choice by those who otherwise would very 
much like to have the unique energy attributes offered by 
nuclear energy? We see the market response through the 
emergence of 50-plus U.S. nuclear reactor technology companies, 
and they are developing these highly, highly innovative small, 
scalable, flexible, versatile, and financeable nuclear 
reactors. These innovative concepts include small modular 
reactors, microreactors, high-temperature gas reactors, molten 
salt reactors, and even liquid metal fast reactors.
    We are not only seeing game-changing and highly disruptive 
advancements in the U.S. nuclear design space but also in the 
advanced manufacturing area as well. The ultimate goal with our 
early-stage advanced manufacturing research and development is 
to enable the development of innovative processes, such as 3-D 
printing, that can be applied to nuclear energy technologies, 
and this is what I call game-changing.
    Finally, the U.S. industry is leading multiple advanced 
nuclear fuels development efforts with some of the design 
components already in U.S. reactor fleet undergoing testing. 
These designs offer real potentially substantially improved 
economics and margins. The advanced fast test reactor is an 
absolute key test platform that we see will be needed to 
support this new class, this new bow wave of very disruptive, 
very promising, and very innovative technologies that are U.S.-
developed. So we have a unique opportunity to realize a 
leapfrogging effect during this inflection moment that we find 
ourselves in this country with regards to nuclear energy, but 
it is by no means too late, but it certainly is in the fourth 
quarter, and this is the time it will be frankly in my view on 
my watch, on our watch, in the next five to eight years as to 
whether we do realize the true potential of these exciting new 
companies, again, like one represented here today.
    So thank you very much for the opportunity to testify 
today.
    [The prepared statement of Mr. McGinnis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Weber. Thank you, Mr. McGinnis.
    Mr. Bowers, you're recognized for five minutes.

                TESTIMONY OF MR. HARLAN BOWERS,

                      PRESIDENT, X-ENERGY

    Mr. Bowers. Thank you, Chairman Weber, Ranking Member 
Veasey. Thank you for your leadership and that of the Members 
of the Energy Subcommittee on the important nuclear industry 
policy issues facing our country today. I have submitted a more 
detailed written statement and respectfully request that it be 
included in today's record of the hearing. And with that, I 
would like to summarize my testimony and respond to any 
questions that you may have.
    My name is Harlan Bowers. Harlan County, Kentucky, was 
where that comes from. I'm President of X-energy. Our CEO Cam 
Ghaffarian started this company ten years ago with the 
altruistic desire to make a difference in the world, to find 
ways to deliver clean, safe, secure, and affordable energy to 
the U.S. electrical industry, U.S. industrial process heat 
users, and the needs of foreign countries.
    The Nuclear Energy Innovation Capabilities Act, or NEICA, 
and the other advanced nuclear energy bills that are being 
considered in Congress genuinely address the obstacles that our 
industry face. Again, we appreciate your support and 
leadership.
    Today, our company is focused on two products, a 75 
megawatt electric high-temperature gas-cooled pebble-bed 
reactor--we call it an HTGR--and the complementary uranium 
fuel. The fuel is based on the Department of Energy's 
investment of almost $300 million in something called tri-
structural isotropic or TRISO particles.
    Over the last nine years, we've continuously evolved our 
reactor concept, focusing on defining a design that employs 
well-understood technologies, delivers electricity at rates 
that are competitive with fossil fuel sources, and can be 
readily licensed by the NRC. X-energy is working to complete 
our first demonstration reactor by the mid- to late 2020s. To 
achieve this goal, we need industry, Department of Energy, the 
national labs, the NRC, the investment community, and Congress 
to work together collectively if we're to meet the challenges 
in front of us.
    Our success at X-energy is advanced by the programs and the 
entities that are supported in your legislation. Let me give 
you some examples. Private-public partnerships, these are 
needed for successful demonstration of advanced reactors. 
Fortunately, the Office of Nuclear Energy at the DOE, with 
Congressional funding, has stepped up their support of advanced 
reactors, and we thank Deputy Assistant Secretary Ed McGinnis 
and his team for the work that they have done and the 
leadership they've provided.
    Through the award of competitively selected cooperative 
agreements, X-energy has been able to accelerate our progress 
against a number of key objectives. Of course, investing in 
nuclear is not for the faint of heart. Several hundred million 
dollars will be required to complete our design and the 
licensing through the NRC. That is why we're pleased to see the 
cost-share portion and provision of the NEICA legislation. 
These provisions are critical to the success of our industry.
    National labs play a vital role in supporting nuclear 
industry competitiveness and advanced reactor development as 
well. X-energy has extensive partnerships with the Idaho 
National Lab and the Oak Ridge National Lab. For example, at 
ORNL onsite, X-energy has established a TRISO fuel fabrication 
facility. This collaboration represents one of the most 
important missions of the labs. The lab performs research to 
identify gamechanging technologies and then partner with 
industry to advance that technology into the marketplace, thus 
making the United States more competitive and ensuring a 
technological advantage for U.S. companies.
    Another essential voice is the Nuclear Regulatory 
Commission. The NRC recognizes at the highest levels that they 
must modernize and improve the way that they historically carry 
out their regulatory mandate. Initiatives such as the licensing 
modernization program will enable advanced reactors to be 
licensed more efficiently. We applaud the efforts undertaken to 
date and look forward to engaging with the NRC in that 
licensing process.
    In closing, let me go back to our end goal, to build and 
demonstrate an advanced reactor and create a new industry by 
the mid- to late 2020s. To accomplish this, we must have high-
assay low-enriched uranium available by 2023 in order to 
manufacture the fuel needed to fuel those advanced reactors by 
2025. This means we need to construct and license new 
fabrication facilities for fuel by the early 2020s. Therefore, 
to accomplish all this, DOE action and supportive bills such as 
NEICA in fiscal year 2019 is absolutely critical to make our 
collective goal a reality.
    X-energy is proud to join with the outstanding leadership 
of this committee and executing upon the policies that will 
allow the United States to reclaim our global leadership 
position in this great American-born nuclear industry.
    For energy security, for national security, and to ensure 
the highest standards of safety throughout the world, we had X-
energy stand ready to continue to work with this committee and 
with the Congress in this grand endeavor.
    With that, I will conclude, and I'll support any questions 
that you may have. Thanks very much.
    [The prepared statement of Mr. Bowers follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Weber. Thank you, Mr. Bowers.
    Dr. Parsons, you're recognized for five minutes.

                 TESTIMONY OF DR. JOHN PARSONS,

              CO-CHAIR, MIT STUDY ON THE FUTURE OF

          NUCLEAR ENERGY IN A CARBON-CONSTRAINED WORLD

    Dr. Parsons. Thank you, Chairman Weber, Ranking Member 
Veasey, and Members of the Committee. Thanks for inviting me 
here to discuss the findings of MIT's two-year research effort 
conducted by a large team, including other institutions such as 
Idaho National Laboratory. I've submitted written testimony, 
and I'll use this time to summarize.
    The nuclear industry is faced with a great opportunity in 
the coming decades. The world needs much more energy, but at 
the same time, the world has to dramatically reduce its carbon 
emissions. Nuclear power is a proven scalable source of low-
carbon electricity, and the industry should be well-placed for 
growth. And yet the grim reality is that the outlook for the 
industry is dim, especially here in the United States.
    Our team has sought to understand the reasons for this 
disparity between the opportunity and the current reality. We 
took a fresh look at the assumption that nuclear power is 
needed to decarbonize the electricity sector, we examined the 
factors behind the alarming rise in the cost of new nuclear 
power plants, and we explored technologies and design options 
that may radically reduce that cost and the value proposition 
for advanced nuclear technologies.
    Our analysis demonstrates that nuclear power is indeed--
does indeed have a vital role to play in decarbonizing the 
electricity sector. While a variety of low-carbon technologies 
are now available, nuclear power can make a distinct 
contribution to the portfolio because it is a dispatchable low-
carbon technology. In most regions of the United States, 
according to our analysis, including nuclear as one element of 
the portfolio dramatically reduces the cost of reducing carbon 
emissions.
    Nevertheless, the industry does face a fundamental problem. 
While other generating technologies have become cheaper in 
recent decades, new nuclear plants have only become costlier. 
Our analysis shows that the major source of cost are the large 
civil works surrounding the nuclear reactor in the power 
system. This includes the large concrete structures that are 
the foundation and the surrounding containment building, but 
also many other components of the plant. It is on these civil 
structures and their construction that attention must be 
focused. Important advances in an array of technologies that we 
highlight make it possible to reduce the cost of building these 
pieces while simultaneously improving safety.
    Changes to industry and practices and regulatory procedures 
are necessary to bring these into use, and we discuss those. 
These technologies are essential to any type of reactor, 
including advanced concepts. Without them, no concept can rely 
on its inherent features alone to be cost-efficient.
    Looking to advanced reactor designs, we highlight that 
these provide important inherent and passive safety features. 
reducing the likelihood of severe accidents while also 
mitigating the offsite consequences of any accident that might 
occur. Our assessment is that the U.S. regulatory system is 
flexible enough to accommodate licensing of advanced reactors, 
but further leadership is needed to realize this possibility. 
We recommend ways to accelerate licensing reviews while 
simultaneously making them more effective in safeguarding the 
public.
    We also recommend that the United States establish sites 
where the government can assist and supervise companies as they 
explore new reactor concepts and demonstrate safe performance. 
In the United States, sites like the Department of Energy's 
Idaho National Laboratory and Savannah River National 
Laboratory have many valuable assets and capabilities. They 
could be useful in designing safety protocols, seeking 
environmental approvals, and providing initial fuel cycle 
services.
    This committee has supported similar ideas in legislation, 
and we thank you for that. The United States should also 
further develop funding programs to support demonstration of 
these new designs, as we detail in our report.
    Even where all of these recommendations followed, another 
important ingredient is still missing. Currently, U.S. 
electricity markets do not compensate nuclear power plants for 
one of the most valuable attributes: being carbon-free. Both 
existing plants and investments in innovation and new builds 
would benefit from a level competitive playing field that fully 
rewards contributions to decarbonizing the electricity sector. 
Policies that disadvantage nuclear energy vis-a-vis other clean 
energy sources discourage that essential investment, raising 
the cost of decarbonization and slowing progress toward climate 
change mitigation goals.
    Many more findings emerge in the course of that research, 
and I'd be happy to discuss them with you. Thank you for your 
time.
    [The prepared statement of Mr. Parsons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Weber. Thank you, Dr. Parsons.
    Dr. Wagner, you're now recognized for five minutes.

                 TESTIMONY OF DR. JOHN WAGNER,

                 ASSOCIATE LABORATORY DIRECTOR,

                 NUCLEAR SCIENCE & TECHNOLOGY,

                   IDAHO NATIONAL LABORATORY

    Dr. Wagner. Chairman Smith, Subcommittee Chairman Weber, 
Ranking Member Veasey, Members of the Subcommittee, it's a 
pleasure and honor to be----
    Chairman Weber. Dr. Wagner, would you move--there you go. 
Thank you.
    Dr. Wagner. Is that better?
    Chairman Weber. Yes, sir.
    Dr. Wagner. Sorry about that. It's a pleasure and honor to 
be here with you today. I'm grateful for the opportunity to 
testify on implementation of S. 97, the Nuclear Energy 
Innovation Capabilities Act. I want to thank this Committee and 
your colleagues in the Senate for the vision, hard work, and 
persistence it took to get this important legislation to where 
it is today.
    The NEICA bill takes significant steps to reestablish U.S. 
leadership in nuclear energy and support private-sector 
development and deployment of advanced reactors. My testimony 
will touch on how the Idaho National Laboratory, or INL, and 
other national labs will use these expanded authorities to 
support the private-sector effort to deploy advanced reactors.
    First, the Versatile Reactor-based Fast Neutron Source or 
what we refer to as a virtual test reactor, or VTR for short, a 
fast neutron test reactor is needed to support testing of 
advanced fuels, materials, instrumentation, and sensors. 
Importantly, this is a capability the United States does not 
currently possess. Development and construction of this test 
reactor will eliminate reliance on Russia for these irradiation 
tests and reposition the United States at the forefront of 
developing and improving new nuclear energy systems.
    The need for this capability has been well-documented, and 
as the NEICA bill moved through Congress, a multidisciplinary 
team of national labs, private companies, and universities have 
been assembled to develop the preconceptual design. The current 
schedule calls for the VTR to be operational by 2026.
    Next, I'd like to discuss the establishment of a National 
Reactor Innovation Center, as called for in S. 97. In many 
ways, this approach harkens back to the decision in 1949 to 
establish the National Reactor Testing Station at what is now 
the Idaho National Laboratory. On this 890-square-mile site in 
the Idaho desert, the U.S. Government, including the Nuclear 
Navy and the private sector, built, tested, and demonstrated 
first-of-a-kind reactors that were later deployed around the 
world. As Subcommittee Chairman Weber mentioned earlier, 52 
different reactors were demonstrated on that site.
    The efforts in those days established U.S. nuclear 
technology leadership around the world for decades, and we're 
still building on that leadership today. We see the Nuclear 
Reactor Innovation Center as a place where government and 
private companies can come together to test and demonstrate new 
reactor designs, as well as materials, fuels, and other nuclear 
energy technologies.
    As was done in the past for light-water reactors, such 
testing will enable advanced reactor deployment by 
demonstrating nuclear system operating performance and 
providing data and experience for licensing and data and 
experience for benchmarking of new computer modeling and 
simulation tools.
    Finally, NEICA calls for expanded high-performance 
computing modeling and simulation capabilities to develop new 
reactor technologies. The current DOE modeling and simulation 
programs have made outstanding progress over the past decade 
for both current operating reactors and future advanced 
designs. In order to achieve the vision outlined in NEICA, 
experts in modeling and simulation of the national 
laboratories, along with the federal staff at the DOE Office of 
Nuclear Energy, are formulating an ambitious plan for the 
future of nuclear energy modeling and simulation as a single 
program to start in 2020, a program I'm calling ModSim2020. The 
vision for ModSim2020 is transformation through advanced 
modeling and simulation of the nuclear system design and 
regulatory paradigm from reliance primarily on empirical data 
to reliance on predictive simulations supported with limited 
experimental data.
    NEICA truly arrived at just the right moment. I say that 
because NuScale and the Utah Associated Municipal Power 
Systems, or UAMPS, a consortium that serves more than 40 
communities in seven Western States, are looking to deploy the 
first small modular nuclear reactors at INL by 2026. This 
project has been strongly and consistently supported by 
Congress.
    Thank you.
    DOE and INL are engaging with the Department of Defense, as 
recently encouraged by the National Defense Authorization Act, 
to develop microreactors and allow critical national security 
infrastructure such as military bases to be self-sufficient for 
their power needs. These microreactors could also be used for 
forward-deployed U.S. military bases and remote communities in 
places like Alaska. DOE and INL are working with NASA to look 
at advanced reactors that could support the power needs for 
manned space missions.
    I appreciate the opportunity to summarize, both the private 
and public sectors have a great need for advanced reactor 
technologies. NEICA will help to meet those needs and ensure a 
future that is prosperous, clean, secure, and resilient. I 
appreciate the opportunity to testify, and I want to thank you 
again for your support and passage of the NEICA legislation. I 
look forward to any questions you may have.
    [The prepared statement of Dr. Wagner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Weber. Thank you, Dr. Wagner.
    I'll now recognize myself for questions for five minutes.
    This is for Dr. Wagner and Mr. McGinnis. And we'll start 
with you, Mr. McGinnis. We'll give Dr. Wagner a chance to wet 
his whistle. What is your specific role and planned approach to 
implementing my bill S. 97, the Nuclear Energy Innovation 
Capabilities Act?
    Mr. McGinnis. Thank you very much. First, let me say 
obviously we stand ready to fully implement the law once it 
is--and at the point at which time the President signs it, but 
I can tell you that many of the activities that we are doing at 
the Department of Energy is certainly very much in line with 
the provisions. We greatly appreciate the leadership and 
support, the acknowledgment of the importance of fast spectrum 
test reactor, of which we do not have in this country, and just 
a couple have them around the world. And it is a great 
disadvantage for us, and it will absolutely inhibit us from 
being able to support this new bow wave of highly innovative 
nuclear reactor designs coming into the pipeline in the United 
States.
    Certainly, also Idaho National Lab and the other national 
labs that we leverage effectively to support nuclear energy in 
the mission, they are well-positioned to support the approach 
for a national test center for reactors and also to work even 
closer with the Nuclear Regulatory Commission and the other key 
provisions.
    Chairman Weber. Yes, thank you for that.
    And, Dr. Wagner, I want to come back to you. You actually 
said a couple things in your remarks that kind of addressed 
this. You said we want to continue to maintain leadership, and 
of course this will be a critical area to maintain leadership 
around the world. And I have to compliment--you said you're 
calling it ModSim2020, which to coin--it's kind of to reverse-
engineer phrase. Instead of hindsight being 20/20, this is 
going to be foresight is 20/20.
    Dr. Wagner. I like that.
    Chairman Weber. So I appreciate that. So what is going to 
be your specific role in implementing this bill?
    Dr. Wagner. So we have significant roles in implementing 
this bill, along with the federal staff in the Department of 
Energy Office of Nuclear Energy. Actually, we've made 
tremendous progress already relative to the versatile test 
reactor. Let me kind of make some comments on that if time 
permits.
    As I mentioned, the need for the versatile test reactor has 
been well-defined. There's several different reports and 
industry statements about the need, so we've been moving 
forward even in parallel with this legislation.
    So with the relevant stakeholders, we developed the 
functional requirements for the VTR, the mission need document. 
What we refer to in DOE 413 language as Critical Decision 0 is 
being prepared now and will be submitted in January of 2019.
    Last week, $3.5 million in university awards were announced 
to address the various technical aspects of the VTR. Earlier 
this month, we selected several initial university proposals to 
participate in the VTR program with an emphasis on experimental 
designs, and we're negotiating the terms of those contracts 
now. In the near future, INL will award a contract to an 
industry partner to complete the conceptual design and cost 
estimate for the VTR. The current schedule calls for a 
completed conceptual design and cost schedule estimate as input 
to what they call Critical Decision 1, or CD-1, to be completed 
in 2021. As I mentioned, the plan is for the reactor to be 
operational in 2026.
    I can go on further. We have plans for the Nuclear Reactor 
Innovation Center, as well as ModSim2020 if you'd like more 
details on those----
    Chairman Weber. Well, and I appreciate that. And certainly 
we will look to those going forward, but I'm about to run out 
of time. I want to get to Mr. Bowers real quick to see how your 
company--if you at all--do you think that the implementation of 
NEICA will affect X-energy and its partnership with DOE 
national labs? I wanted you to weigh in on that, please.
    Mr. Bowers. Partnership with national labs, the example 
that I had cited in regards to development of fuel, it's 
important to recognize that at least 15 years if not 20 years 
of research and development was performed at both Idaho 
National Lab and at Oak Ridge National Lab in regards to this 
particular fuel form. And this fuel form is referred to as 
TRISO--we talked about that before--and specifically uranium 
oxycarbide. It's not manufactured anywhere else in the world. 
It is unique to the United States, and it provides a capability 
within the fuel to generate more power than our competitors in 
China or from other countries could.
    So branching off from that understanding, from that 
capability, taking what those Ph.D.'s at Oak Ridge National Lab 
have learned and be able to translate that into the marketplace 
is key. So our goal is, as we build our commercial fabrication 
facility--and at the moment we are looking at Oak Ridge, 
Tennessee, as the potential location for that facility. It's 
strategic to locate the fabrication facility there because we 
would have not instant but very easy access to those Ph.D.'s as 
we're developing our commercial processes. If we have problems, 
issues that arise, we need some additional research to be 
performed to be able to go right back into the labs and use 
that capability.
    Chairman Weber. So I'm a little bit over my time. So 
suffice it to say your company is well-positioned to make that 
transition?
    Mr. Bowers. We are poised and ready and funded by 
Department of Energy to make that happen.
    Chairman Weber. Well, that's good to hear.
    Mr. McGinnis, I want to jump to you real quick with the 
Committee's indulgence. You cited challenging market conditions 
and the availability of innovative technology as reasons as to 
why the nuclear energy sector is currently undergoing a 
transformative period. With that in mind, does it make sense 
for DOE to continue to provide substantial financial backing to 
any nuclear project that isn't A, scalable; B, cost-effective; 
or C, flexible? Is that going to be a hard corner to turn? What 
do you think?
    Mr. McGinnis. Thank you very much. That's a very important 
point. First of all, I do want to qualify that there continues 
to be a very important role for large-scale nuclear reactors. 
In fact, the United States Department of Energy thanks the 
Congressional leadership support. We have what is considered 
the most advanced commercially available large passably safe 
set of reactors available in the world, and that is with 
Westinghouse's AP1000 and the ESBWR. That was hard-fought, 
strong, technical partnership over the years with the United 
States. We're proud to have supported that. Those reactors 
remain available. Four have now just been completed in China, 
the AP1000--we're looking to the two in Vogtle to get done. 
Those provide 60 and 80 years----
    Chairman Weber. You and a whole lot of people.
    Mr. McGinnis. Yes.
    Chairman Weber. Keep going.
    Mr. McGinnis. Yes, sir. But the fact is they do play very 
important roles. However, as I indicated, I believe that there 
is a far greater percentage of market out there, customers that 
want nuclear clean baseload nuclear, but these products, large 
and large, are just too large. They need product choice. They 
need to be able to go in and not bet the farm with the 
company's balance sheet. And so that's why we think that this 
is going to open up an entirely new market and give customers 
finally the option to access nuclear without the choice of 
betting the farm and waiting five, ten years to see any revenue 
generation.
    Chairman Weber. Yes, well, thank you for that. That was our 
hope. Thank you. And I apologize to the Committee for being 
over time.
    Mr. Tonko, you are recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to all of 
our witnesses for joining us on what is a very important 
discussion.
    Dr. Parsons, thank you for sharing some details of MIT's 
``Future of Nuclear Power'' study. There are many members that 
want to see us make significant reductions in carbon pollution, 
and it behooves us to better understand the role that 
preserving existing nuclear capacity and developing new 
advanced nuclear resources might play in achieving that 
ultimate goal of deep decarbonization.
    From the modeling done in your study, what did you find in 
terms of reaching that 90 to 100 percent greenhouse gas 
reduction?
    Dr. Parsons. Thank you. First of all, the existing nuclear 
reactors are absolutely essential for reaching even a modest 
reduction. They provide the lion's share right now of low-
carbon electricity, and the cost of providing that is the 
cheapest of the ways to provide low-carbon electricity. So it's 
very concerning that some of those plants have recently been 
closed and that a number of them are economically threatened. A 
commitment to decarbonization really will require a commitment 
to keeping those reactors operating.
    Mr. Tonko. And if nuclear is not part of the generation mix 
at those levels, what is the impact on electricity 
affordability?
    Dr. Parsons. Well, the major advantage of putting nuclear 
into the mix is to keep the cost of decarbonization from 
escalating. Nuclear keeps the costs lower and makes electricity 
much more affordable and the decarbonization task much more 
affordable.
    Mr. Tonko. And what do you attribute to these costs? Is it 
primarily from the current cost of energy storage?
    Dr. Parsons. Right. Well, some of the most valuable low-
carbon electricity sources such as wind and solar are reliant 
on the resource of the wind or the sun, and they're only 
available in certain hours of the day and at variable amounts 
during seasons of the year. In order to provide carbon-free 
electricity at all hours of the year, you would need a buildout 
of that capacity that's at a very, very high scale. So an 
initial buildout provides you what you need, but in order to 
cover all of the hours, the buildout starts escalating and the 
costs start escalating.
    Mr. Tonko. If we continue to invest in R&D dollars for 
energy innovation, including both advanced nuclear technologies 
and storage, can we expect to reduce those costs?
    Dr. Parsons. Yes, nobody knows what the future holds. Each 
of these different technologies may be able to provide a 
critical contribution in the future. Batteries can be terribly 
valuable. Advanced nuclear can be terribly valuable. And we 
need to have, so to speak, many shots on goal in order to keep 
the opportunities available to society.
    Mr. Tonko. And while many consider nuclear to be important 
in the overall efforts for a decarbonized energy future, I 
think there is equal concern by the reported cost overruns at 
the Vogtle plant. Dr. Parsons, can you help us understand where 
these unexpected cost are coming from?
    Dr. Parsons. Yes, you're certainly right that those costs 
are very critical and need to be brought under control. We did 
a significant amount of research on this, and we identified 
that most of the large--lion's share of the cost and certainly 
of the cost overruns are in the construction of the civil 
structures surrounding the nuclear reactor in the power system, 
and so that construction process needs to be dramatically 
rationalized and new technologies need to be applied to reduce 
the cost of those structures.
    Mr. Tonko. And what recommendations would you offer to make 
certain that advanced reactors might be able to be constructed 
without those same concerns for cost overruns with the civil 
infrastructure?
    Dr. Parsons. Well, it's important to realize that these 
kinds of civil structures are essential to any kind of nuclear 
reactor, so whatever design one's developing, we need to make 
an investment in the construction technologies that will make 
all designs affordable. The kinds of research-and-development 
funding that this committee has supported that DOE has done in 
the past have created opportunities which we could utilize now 
to reduce those costs.
    Mr. Tonko. And we don't always connect the dots between 
some of these breakthroughs in the foundation construction and 
the industries that might benefit from them, but it highlights 
the importance, I believe, of crosscutting research. Are there 
concerns that cuts in federal research may limit the potential 
of nuclear energy to reduce costs and improve safety?
    Dr. Parsons. Right. To meet the future, we need future 
technologies, and so the research-and-development funds that 
have been granted in the past have given us opportunities, but 
we're going to need many more to meet this challenge.
    Mr. Tonko. Well, I appreciate your testimony and the role 
that nuclear can play in a decarbonization agenda. And thank 
you for the thoughtfulness behind the study.
    Mr. Tonko. And with that, Mr. Chair, I yield back.
    Chairman Weber. Thank you, Mr. Tonko.
    The Chair now recognizes Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Deputy Secretary McGinnis, I don't know if you're in a 
position where you can spread the word within the Department of 
Energy, but we need some help. In the Tennessee Valley there is 
a nuclear power plant called Bellefonte. TVA has spent over $6 
billion on this facility. They recently sold it at public 
auction for $111 million, which may very well make it the 
biggest boondoggle in the history of the Federal Government, 
particularly with respect to nondefense. Perhaps there are some 
defense things that are competitive. And for that $6-plus 
billion spent, we've had this much electricity generated, zero.
    There is an effort now to get that facility completed by 
the private sector. There are things that have to be done 
through the Department of Energy. If there's anything you can 
do sending the message back, I know that the people of Jackson 
County, Alabama, would very much appreciate it because the 
University of Alabama has projected that this facility, if 
completed, would generate over 1,000 jobs with an average 
salary of $136,000 per job. That's pretty doggone good in the 
State of Alabama.
    So with that as a backdrop, let me talk a little bit more 
to the point of this hearing today. In 2017 there were 99 
nuclear power plants in 30 States in the United States' 
operating fleet, which generated approximately 805 billion 
kilowatt hours of energy. This is equivalent to 20 percent of 
total United States electrical output and 60 percent of its 
emissions-free electricity. There's been some comment to that 
already. I want to reemphasize it.
    One fingertip-sized uranium fuel pellet about this big can 
generate as much energy as 17,000 cubic feet of natural gas or 
149 gallons of oil or 1 ton of carbon to kind of put it into 
perspective. We've got some political interest groups that 
would just assume that we not have any nuclear energy in the 
United States or on planet Earth for that matter. Very quickly, 
can you describe what the impact on America would be if we were 
to suddenly decide that we are no longer going to have nuclear 
energy? Over the next year or two what would be the impact on 
the power grid and the ability of America to continue to 
function as we are today?
    Mr. McGinnis. The impact would be incredibly negative, 
substantive, and long-term not only from a resiliency 
perspective, needing to have 24/7, 365-days-a-year nuclear or 
electricity available, not just when the sun is shining and 
when the wind is blowing. I would submit that nuclear energy 
has an absolute necessary role in an all-of-the-above. And 
don't get me wrong; we need all of the above, but nuclear 
energy still remains utterly unique. As you indicated, sir, 
density of power. There is no other power source that provides 
the density of power.
    There's another interesting fact. We have about 7,700 of 
all shapes and sizes electricity-generating plants around the 
country, wind, solar, natural gas, coal, you name it, 7,700. 
Now, it's 59 of those sites is nuclear, so less than one 
percent of all the generating plants in this country is 
generating 60 percent of our clean, 20 percent of our 
electricity. The density of power is unmatched, and the 
longevity, there is no other source that can go all out full 
power 24/7 for 18 to 24 months, so----
    Mr. Brooks. Let me try to interject for just a moment since 
I only got about a minute left and focus on things that I think 
the general public can better understand. What would be the 
impact on brownouts, blackouts where you have no electricity, 
or electricity rates if we were to eliminate the nuclear power 
production over the next year or two like a lot of these 
political activists over on the left want to do?
    Mr. McGinnis. I can tell you that's exactly what we're 
looking at the Department of Energy, especially with the grid 
modernization initiative. We are very concerned if we were to 
exit nuclear. The impacts to the stability of the grid, the 
availability. Like Secretary Perry said, whether it's in the 
wintertime or in the summer, we want our family to be able to 
know that that power is available. And it's not just from 
natural-made, manmade threats, we have an evolving grid that is 
increasingly reliant on intermittent that's driven by when the 
sun is out and when the wind is blowing, and that is going to 
truly challenge our ability to deal with not when everything's 
going well but when things go wrong, and there will be times, 
whether it's manmade or natural, and we need to make sure our 
grid is resilient, and nuclear is an absolute fundamental 
element of that.
    Mr. Brooks. Thank you, Mr. McGinnis.
    Mr. Chairman, I yield back.
    Chairman Weber. All right. Thank you, sir.
    And, Mr. Veasey, you are now recognized for five minutes.
    Mr. Veasey. Thank you, Mr. Chair.
    I understand that MIT published its first report on the 
future of nuclear power back in 2003, and I wanted to ask, Dr. 
Parsons, what are the most significant differences about the 
future of nuclear energy between the publication of that first 
report 15 years ago and now?
    Dr. Parsons. Yes, well, the situation has dramatically 
changed. On the one hand, we have some cheaper competing 
sources of energy, so America's cheap natural gas provides a 
cheap source of energy, unfortunately with carbon, but 
nevertheless beneficial for customers. And then renewables have 
become much cheaper, providing another great option for 
reducing carbon emissions and providing low-cost power.
    Of course, the Fukushima nuclear disaster happened in 
between, and that has obviously raised public concerns, and 
that's a major important thing that needs to be addressed by 
the industry. And, dramatically, nuclear has not achieved the 
lower-cost targets that were advertised at the time and people 
hoped would be achieved. So nuclear faces significant 
challenges to be an important player in achieving our goals 
going forward, and that's why we did the study, to address 
those challenges.
    Mr. Veasey. How would you compare the merits of a 
technology-neutral price on carbon emissions to the merits of 
recent proposals by the Administration to subsidize nuclear and 
coal plants? As you know, that was a very controversial 
proposal that came out. And largely based on the arguments of 
their contribution to the reliability and resilience of our 
electric grid.
    Dr. Parsons. Well, the cases vary one by one, and the 
situations vary in different regions, but we investigated this 
problem and, as I've indicated, if we let these nuclear power 
plants retire, that's going to lose one of our lowest-cost 
sources of low-carbon electricity. The value of these nuclear 
power plants is in the low-carbon characteristics. We haven't 
been able to find any unique or substantive other values above 
and beyond that that would provide an economic rationale for 
keeping most of these reactors open. But the value of the low-
carbon electricity is more than enough to make these units 
competitive.
    Mr. Veasey. In your testimony you note that the growth of 
nuclear industry has been hindered by public concerns about the 
consequences of severe accidents in traditional gen-2 nuclear 
power plant designs. Can you talk about some of the 
advancements made by gen-4 reactors that you think would maybe 
help quell some of the concerns that the public has?
    Dr. Parsons. Sure. Well, first of all, I think by and large 
we believe that nuclear power is generally a safe form of 
producing energy, and the problems that we really face are with 
some of the emissions from other forms of energy that nuclear 
doesn't provide. But obviously, catastrophic accidents sear the 
mind of anybody who sees them. I personally remember waking up 
early in the morning in 2011, March 2011, and seeing the 
tsunamis in live action in Japan, and it was just very 
impressive and then in the days after watching the news in live 
action, seeing some of the explosions happen at that nuclear 
reactor. So I'm personally very clear on how that can impact 
you and make you appreciate the dangers facing things.
    Many of these new reactor designs have a characteristic 
that not only do events like that happen less often but they 
control the operation of the plant in the event of an accident 
so that you don't have any likelihood of major explosions or 
disruptions of that sort. And if you went to such an event, 
they contain the dangers within the plant boundary, and so 
that's the hope of developing these reactor designs, that they 
would make it for the public something that would be perhaps 
more of a normal industrial accident, tragic whenever it 
happens but something more comprehensible and less difficult to 
understand.
    Mr. Veasey. Thank you. Mr. Chairman, I yield back.
    Chairman Weber. Thank you, sir. Mr. Hultgren, you're 
recognized for five minutes.
    Mr. Hultgren. Thank you, Chairman Weber. Thank you, each 
one of you. I appreciate your work, appreciate your time being 
here today. I'm going to address my first couple questions to 
Mr. McGinnis if I might.
    What's the mission of DOE's Gateway for Accelerated 
Innovation in Nuclear, or GAIN, program? And I wonder if you 
could share some examples of industry partners licensing and 
commercialization processors were accelerated by this program?
    Mr. McGinnis. Thank you very much. The purpose of GAIN is 
to essentially support a very streamlined, efficient access to 
our nation's, the Department of Energy's world-class nuclear-
related facilities, whether it's Idaho National Lab or among 
the other 17 total labs in the complex. And as we've listened 
as carefully as possible from industry with feedback, and one 
thing we've heard was they need unfettered, efficient access to 
these facilities to be able to prove out, test out their 
innovative concepts. And many of these capabilities we have 
great investments from the taxpayer, and they are world-class. 
So it is very important to do that.
    We have a multitude of companies that we provide support 
through GAIN, and so we're very proud of that, literally in the 
dozens, leading vendors, utilities, technology developers, fuel 
developers. It's a very successful program, and we look forward 
to continuing to support that program.
    Mr. Hultgren. That's great, thanks.
    Also, Mr. McGinnis, we understand that there are some 
delays in DOE's site permitting process for privately funded 
reactors. What's the status of DOE's site use permit process 
for privately funded reactors, and what are some of the reasons 
for the delays?
    Mr. McGinnis. I'm not sure of the specific references 
you're making, but I can say from the Idaho National Lab for 
which my office is responsible for stewardship-wise, we are 
very proud that Idaho has served essentially for, you know, the 
venue for 52 different first-of-a-kind reactors built in its 
history, and we have at least three agreements, site-use 
agreements right now with United States and other innovators. 
One is a microreactor, one is NuScale, which I think is really 
in the forefront in its position to potentially be our nation's 
first advanced small modular reactor.
    We are working as hard as possible to make sure that these 
agreements are being let out in an efficient way. From a 
nuclear energy perspective, it's my understanding--and I've 
been watching them very closely--they are proceeding. We have 
those in place now. When we get applications through our Idaho 
operations office, we prioritize that. We get it. We are in an 
extremely challenging time, and time is not our friend. So we 
are going to continue to get the feedback to make it as 
efficient as possible and improve that process to make it as 
user-friendly as possible.
    Mr. Hultgren. Great. Thank you.
    Mr. Bowers, X-energy's partnership with the Department of 
Energy, national laboratories, how is the intellectual property 
associated with your nuclear designs and concepts managed? And 
is there anything about this process that you believe could be 
improved?
    Mr. Bowers. Intellectual property is truly, as you have 
identified, a key aspect of what we're trying to accomplish. I 
can also take that from the perspective of we want to ensure 
that it remains a U.S. capability and protect that from an IT 
security perspective. The work that we are performing at Oak 
Ridge National Lab today, as I alluded to earlier, it really 
enables us to take our reactor and make it a thoroughbred in 
comparison to some of our competitors internationally. So it is 
very important for us to retain that and protect that.
    As a small business, the DOE does allow us to apply for a 
patent waiver, and so we are able to claim patents associated 
with the work that we are performing both at the national labs 
and under contract with the DOE, and therefore, we have, you 
know, ownership of that and can proceed forward with that. So I 
would say to date the partnership has been good, and we 
continue to find new, innovative, and novel things that will 
make our designs better, and we have been able to retain the 
ownership of that knowledge as we move forward.
    Mr. Hultgren. Great. Quickly, Dr. Wagner, just a quick 
question for you. What is INL doing to support the management 
and archiving of legacy reactor test data?
    Dr. Wagner. Actually, that's a great question because there 
is a great deal of that legacy data out there, and it's in high 
demand from the reactor developers currently. And so actually 
we have a number of programs with other laboratories, including 
Argonne National Laboratory, to basically assemble, process, 
and make data available from past reactor experiments like 
TREAT and LOFT and EBR-II. Honestly, we need to do more, but we 
are working on that.
    Mr. Hultgren. Good. Again, thank you all. Chairman, thank 
you for hosting this Committee, and I yield back.
    Chairman Weber. Thank you, sir.
    The gentlelady from Nevada is recognized for five minutes.
    Ms. Rosen. Thank you, Mr. Chairman and our distinguished 
panel, for joining us here today.
    As we discuss the future of nuclear energy and developing 
technologies, the one question I really think we have to answer 
is this: Where will we store or dispose of the waste? Now, I'm 
from Nevada. As my colleagues on this committee have heard me 
say before, I strongly oppose our country storing nuclear waste 
at Yucca Mountain for many reasons. The site continues to 
present serious safety and environmental concerns, which are 
detailed in hundreds of contentions filed by our state. These 
alone will take years to address, but even if the site was 
greenlighted, it would take up to 50 years to build the 
infrastructure in Nevada and across the country and allow the 
waste to be cooled and shipped by road and rail through heavily 
populated communities like all of us represent.
    So I have a two-part question for anybody who would like to 
jump in first. So to what extent are researchers and industry 
proposing solutions to the nuclear waste, the long-term storage 
problem that may not involve Yucca Mountain, and then what 
technologies are on the horizon that you believe could 
significantly reduce or even eliminate the need for large-scale 
long-term geologic repository for nuclear waste, for example, 
reducing waste in place?
    Mr. Bowers. Thank you. I'd like to start by talking about 
fuel cycle in that regard. We are moving forward right now with 
uranium-based fuel. I mentioned uranium oxycarbide, which does 
have--you know, we do have spent fuel at the end of our 
reactor's 60-year life, and there is a storage requirement and 
there are certainly measured in thousands of years of 
radioactivity of that material.
    The high-temperature gas-cooler reactor does offer the 
opportunity to do a different fuel cycle, which is thorium-
based. There is more thorium in the Earth than there is 
uranium. The way that the fuel would perform within the reactor 
is absolutely identical to how it would be worked using the 
uranium approach, and the half-life is measured on the order of 
a couple hundred years. So while there still is a storage 
requirement, the concern of millennium-long storage--long-term 
storage facilities becomes mitigated as we move forward and we 
can advance the technology for thorium-based fuel. Thank you.
    Ms. Rosen. Anyone else want to comment? Thank you.
    Dr. Parsons. So, first of all, I think any of the reactor 
technologies that we'd be discussing will all require some sort 
of short-term storage in some sort of long-term repository of 
one sort or another. So that's an inescapable choice that we 
have to make.
    Secondly, we did not provide any new results scientifically 
about waste in our report, but we did highlight that there have 
been several studies done. Previously, we had done a study back 
in 2011. There's been a Blue Ribbon Commission. There are 
others that have provided sensible solutions and options for 
the United States. In particular, we highlight that it's very 
important to get consensus and consensus-based siting precisely 
because we do need to move forward. And there has been the 
demonstration of successful consensus-based siting in both 
Finland and Sweden, and it could be a very valuable thing. 
Investors in new technologies are very concerned if a piece of 
the arrangement has not been settled, and so settling a piece 
of the arrangement would help facilitate investments.
    Ms. Rosen. You just answered my next question on consent-
based siting, so I'm going to move onto another question. 
Something that we talk a lot about in this committee is early-
stage research and late-stage research. It's used in a very 
cavalier fashion sometimes in this 2019 budget as a rationale 
to cut one program, maybe fund another. We haven't really 
defined those terms I don't think adequately.
    So is it your belief--Mr. McGinnis, I'll ask you this--that 
policymakers can and should draw a bright red line between 
basic and applied research or between early-stage and late-
stage research or should we be realistic and identify where the 
government can play that valuable role in de-risking 
technologies to partner with industry?
    Mr. McGinnis. Thank you very much. Those are very important 
points. I'm in an office that is an applied energy office, and 
I have the great fortune to be working with innovative first-
of-a-kind designers such as here today. And the first-of-a-kind 
designs I think are dramatically different from a known 
technology that's in the market.
    With regards to early-stage R&D, therefore, I would say 
that the idea of where early-stage R&D starts and stops, it's 
much greater down the pathway of deployment of a first-of-a-
kind technology because it is so intensively technically 
driven, modeling and simulation, the materials, going through 
the entire stage of the NRC process. For example, of a first-
of-a-kind, one might find themselves having to go back to what 
is called TRL-2 or 3 issues where they have to go back to the 
basic science.
    So you have a flow of early-stage in a broader breadth for 
first-of-a-kind if that makes sense, but it is a very important 
point. I would say ultimately the sweet spot for the Federal 
Government in partnering with companies is when they have very 
challenging technical issues that they have not been able to 
dispatch, and that we the Federal Government are uniquely in a 
position using our advanced test reactors, our other sites to 
bring them to bear. So that's where we are proud to do that, 
and in my view it is consistent with the early-stage R&D is the 
focus with what we're doing here today with our technical 
partners.
    Ms. Rosen. Thank you very much.
    Mr. McGinnis. Thank you.
    Chairman Weber. Thank you, ma'am.
    And now, the Chair recognizes one of the newer members, the 
gentleman from Texas. Is it Victoria?
    Mr. Cloud. Victoria.
    Chairman Weber. Victoria, you're recognized for five 
minutes, Mr. Cloud.
    Mr. Cloud. Thank you, Chairman.
    Thank you for being here. Thank you for hosting this 
Committee on advancing nuclear technology.
    This is an important topic for me because we have a nuclear 
plant in our district in Matagorda County, so it's important of 
course to the nation. But, Mr. McGinnis, you mentioned in your 
testimony that nuclear power plants serve as bedrocks to 
communities across the country, providing high-paid, skilled 
jobs to almost half a million Americans. Of course, this is 
true in Matagorda County and in our district.
    What I hear from the folks at the nuclear power plant in 
our district is that regulatory oversight by the Nuclear 
Regulatory Commission is heavy with low-value inspections and 
regulations that do little for the safety of public but drive 
up the cost in an industry that's among the safest in the 
country. In 2016 the Nuclear Energy Institute testified that 
since 2011 the NRC has on average nearly doubled the time it 
takes to review license renewal and power uprate applications. 
A study by the American Action Forum discovered that the 
average nuclear power plant must comply with regulatory burden 
of at least $8.6 million annually, and regulatory costs imposed 
on nuclear power plants by the NRC since 2006 have totaled $440 
million. So, Mr. McGinnis, could you share with the Committee 
the Administration's view on the current regulatory 
environment?
    Mr. McGinnis. Thank you very much. And I do want to also 
give a huge shout out for Matagorda County with a south Texas 
nuclear power plant. It is just an absolute example of 
resilient power, having gone through extreme weather events and 
been there with some amazing stories of the commitment of the 
employees at that nuclear power plant and the leadership of the 
county. So I want to thank Matagorda County for the leadership 
for really the country. We appreciate that.
    With regards to the regulatory environment, I think, first 
of all, first principles is I believe that one can have an 
absolute top, top level of safety while seeking maximum 
efficiency, cost-effectiveness, and speed. I believe it is 
possible to continue to realize greater efficiency in the 
regulatory process. I believe that the leadership that is now 
at the Nuclear Regulatory Commission understands that. We see a 
lot of examples of them working hard to be as efficient as 
possible because time is money for these companies, and it is 
incredibly challenging to get these technologies, especially 
new innovative technologies, through a regulatory environment. 
And we want to do everything we can to support and not 
discourage these great innovators to come in and change the 
future of our nuclear energy landscape.
    A couple of examples, we're working with the Nuclear 
Regulatory Commission to bring to bear our modeling and 
simulation capabilities. We have now the fastest supercomputer 
in the world now, and that's Summit in Oak Ridge. We have 
tremendous capabilities. NRC uses our assets. We're proud that 
we developed a draft set of guidelines for advanced reactors, 
submitted them, and they were largely accepted. We continue to 
partner with them, but I think everybody would agree, they 
included, that we want to continue to try and reduce the time 
and cost for these applications.
    Mr. Cloud. Thank you. Would you say that the current 
regulatory environment then matches or what would be your 
opinion on the regulatory environment versus the successful 
track record of existing nuclear plants?
    Mr. McGinnis. Well, I think that for many understandable 
reasons, the regulatory environment is set up for the current 
reactors, large light-water reactors. That's what we've had for 
decades and decades. So what we're attempting to do is support 
in any way we can, recognizing the important independence of 
the NRC, to be ready with the expertise and the regulatory 
processes for these new disruptive technologies, some of which 
have very different attributes, some mentioned here today, 
passive safe systems that are designed to literally shut down 
on their own without any human intervention, any electric-
driven pumps or motors in the event of a loss of offsite power 
or coolant.
    That is revolutionary. Not only is it huge for public 
confidence to be able to look a citizen in the eye and say the 
next generation--while the reactors are safe here today, the 
next ones are gamechangers. These are reactors that will shut 
down on their own, and then you have market opportunity and 
distributed opportunity.
    We see the NRC. They just exempted the electric pumps and 
motor requirement for NuScale, the first reactor going through 
this process. And the second thing they're looking at now is 
whether now do you need a 10-mile emergency planning zone? And 
if you don't, we have a distributed opportunity with safety 
built in that we never had, market opportunity. So I think 
there is strong significant progress being made, but certainly, 
they are working hard at the NRC to get ready for an entirely 
new class of reactors. That's the challenge.
    Mr. Cloud. Thank you.
    Chairman Weber. You may not know, Mr. Cloud, but when I was 
a state rep, those were the days before I got demoted--I had 
STP in my district. I had Matagorda County. In 2010 we went 
through, my staff and I, and watched them change out their fuel 
rods. That was pretty cool. And by the way, they have a 7,000--
if I remember right, 7,000-acre water pond, cooling water pond 
and got great alligator hunting. I'm just saying.
    The gentleman from California is now recognized for five 
minutes.
    Mr. McNerney. Well, I thank Chairman Weber for your 
personal anecdotes there. They're always useful and 
interesting.
    I thank the panel this morning for coming in to testify. 
Mr. McGinnis, I was going to ask the failsafe question because 
I've always been nervous after the Fukushima disaster, but it 
sounds like you're on that one. I mean, if it's failsafe and it 
fails badly, then something's wrong with the system. So you're 
giving us assurance that these new designs are real failsafe, 
that they're passive, that they can shut down without human 
intervention, and if there's a disaster like a flood, they 
still won't cause problems?
    Mr. McGinnis. Thank you very much. And I think the best 
person to answer that is a person leading one of those designs 
here today.
    Mr. Bowers. I was really hoping you would hand that one off 
to me.
    Mr. McNerney. Okay.
    Mr. Bowers. If you'll allow me.
    Mr. McNerney. Yes.
    Mr. Bowers. So the pebble bed or just in general the high-
temperature gas-cooled reactors do have this capability to 
self-moderate themselves, so as the temperature rises and gets, 
you know, quote unquote, too hot, the reactivity stops. And so 
then as reactivity slows down, the temperature drops again and 
then this cycle continues to take place over several hours to 
several days.
    So then the question is really has this ever been 
demonstrated? So for high-temperature gas-cooled reactors there 
have been a half a dozen built around the world over the last 
40 years, and there have been three tests that were performed, 
one in Germany, one in Japan, and one in China where the 
coolant, which was helium in those cases, was evacuated from 
the reactor and then they watched the temperatures and the 
reactivity within the reactor to see what happens.
    And as predicted by the physicists, the temperatures rose 
and then self-moderation took over. The temperatures dropped 
back down again, and the reactivity subsided. So it has been 
test-demonstrated passive safety that there was no need for any 
active systems to ensure that the reactivity was maintained 
under control.
    Mr. McNerney. So now that you've brought up the 
physicists----
    Mr. Bowers. I'm an engineer----
    Mr. McNerney. Okay.
    Mr. Bowers. --by the way.
    Mr. McNerney. I'm a mathematician, so we both have a thing 
with physics. But how about using artificial intelligence in 
designing reactors like the small modular reactors? Are we 
going to be able to use big data and artificial intelligence to 
come up with really highly effective designs? Dr. Parsons, 
would that be your bailiwick? No?
    Dr. Parsons. I will venture out a little bit on that one 
and maybe hit it on the side, which is to note that for the 
previous decades we have various modeling and simulation codes 
that have been developed, and the question is always how do you 
ensure that your code is accurate, that the numbers that you 
get out of it are correct? And that's always been performed via 
test, so you would set up a large-scale test of some kind, run 
that test, get results, test results, measurements, 
temperatures, et cetera, and you would compare that to the 
results that you're getting from your software codes.
    The capabilities of software, the capabilities of computing 
power such as the cluster that's available at Oak Ridge 
National Lab really offers us an opportunity to reduce the cost 
of development and use modeling and simulation almost 
exclusively rather than relying on these very large complex 
test systems for verification, so I think there's a lot of 
opportunity in advanced modeling and simulation going forward.
    Mr. McNerney. Thank you. I'm sorry I came in late. I was 
going to ask Dr. Parsons about his MIT report and using nuclear 
power to balance renewable energy and the cost that renewable 
energy might have without nuclear power. Could you expand on 
that a little bit, Dr. Parsons?
    Dr. Parsons. Sure. Well, I'll just say quickly that it's 
great that we've seen enormous cost reductions in renewable 
energy, and they've provided us a great opportunity to make 
some good steps forward in reducing carbon emissions. The 
problem is that the farther and farther you go in making 
reductions in carbon emissions, you start needing eventually to 
multiply your investments in the renewables. So the cost isn't 
linear. It becomes nonlinear as you go to really deep carbon 
reductions. And that's the role that we point out nuclear can 
play to cap that escalation of costs at--by balancing--
providing the balance of power when renewables have a modest 
amount of resource available. And keeping that cap on I think 
would be important for accomplishing our goals.
    Mr. McNerney. Is nuclear technology ready for that?
    Dr. Parsons. Certainly, nuclear technology is ready for 
that, but we do need to make it--if we can make some of the 
cost reduction targets we describe, it makes a big impact on 
how low that cap can be.
    Mr. McNerney. Thank you, Mr. Chairman. Are you going to do 
another round of questions or is this it?
    Chairman Weber. Well, do I get to do my anecdotes?
    Mr. McNerney. Please don't.
    Chairman Weber. The gentleman's time has expired.
    The Chair now recognizes the gentleman from California.
    Mr. Rohrabacher. All right, Mr. Chairman. Were those 
alligators, did they glow in the dark?
    Chairman Weber. I've not gotten close enough to find out.
    Mr. Rohrabacher. All right. Let me just say thank you. I'm 
sorry I was late. When you're here, you've got three or four 
different things to do, and I've really appreciated the 
testimony I've heard so far, and I will be reading your 
submitted testimony in the meantime.
    Are any of you advocating building new light-water 
reactors? Okay.
    Mr. McGinnis. Absolutely.
    Mr. Rohrabacher. Okay. We have a light-water reactor in my 
area, San Onofre, and they are now storing the rods that are 
left over, this nuclear waste, at a cost of $70 million a year, 
and no electricity is being produced for hundreds of years. Are 
you sure that it's worthwhile building light-water reactors?
    Mr. McGinnis. Thank you very much. First, I want to say 
that the new class of advanced reactors coming down the pike 
include both light-water and non-light-water. These designs in 
non-light-water are frankly I think in my view very exciting. 
They include these passive safe--some would call walkaway safe 
designs----
    Mr. Rohrabacher. Right.
    Mr. McGinnis. And certainly ultimately beyond that the 
class of reactors non-light-water, they're in a position to 
consume and reduce the amount of waste ultimately. But we 
certainly support also the full life of these reactors. I just 
got back from Pennsylvania at the State House where they have 
three reactors in Pennsylvania that are slated to shut down 
early. If they shut down early, they would wipe out all of the 
wind and solar contribution in the PJM market in all 13 states 
where PJM is in one fell swoop because you will lose that much 
emissions-free generation.
    Mr. Rohrabacher. Right. And how much of a danger do you 
think would be put upon the people of the area if they had a 
Fukushima-type incident because I imagine the Fukushima 
alternative was sold to the Japanese that nothing can ever go 
wrong. And then we end up with a catastrophe in Japan. And 
again, we've sold them on the light-water reactor.
    Mr. McGinnis. I have great faith in the NRC. We realized a 
lot of lessons learned from Fukushima and put them into the 
light-water reactor plans that are being operated today, but 
ultimately, I also believe it is absolutely necessary. We need 
to find a pathway to take the spent fuel that is on these sites 
and put them in a disposal in a repository and stop kicking the 
can.
    Mr. Rohrabacher. Yes, is it possible that the leftover 
waste--it's already been mentioned by Dr. Bowers--that some of 
that waste actually can be used as fuel for the next generation 
of nuclear power that would not be light water?
    Mr. Bowers. I will comment that there are advanced reactor 
concepts and designs that have been put forward that do take 
reprocessed fuel or spent fuel and can use that as fuel for 
their reactors. I will comment that that is not the design that 
we are moving forward with, but I know that Ed is very familiar 
with----
    Mr. Rohrabacher. I think that we should----
    Mr. Bowers. --some of those processes.
    Mr. Rohrabacher. When you consider we're saying that in my 
area in the middle of a residential area that we are going to 
be storing nuclear power rods for 1,000 years is unacceptable 
to anybody. And who knows what type of dangers will come up? 
Who knows if we'll have a California earthquake that then we're 
putting hundreds of thousands of people's--maybe millions of 
people's lives at stake with that type of reasoning. And I 
would hope that we would proceed, you know, and say light-water 
reactors had their day. What can we do now to improve nuclear 
energy and its ability to provide for the needs of the people 
of the country?
    And, Mr. Bowers, you're mentioned on the high-temperature 
gas-cooled reactors. I think that there are a number of those 
alternatives that seem to make more sense that you're going to 
have far less waste and waste that perhaps can be used--we can 
use up the waste from the reactors before. Let me ask you this. 
Is any of this based on fusion energy? No? Okay. Well, how much 
money are we spending on fusion energy? We've spent billions of 
dollars developing fusion energy. Again, I believe that's a 
total waste. And the fact is we should use that money that 
we're spending on developing fusion and let's spend it on some 
of the ideas that you have for the next generation of fission 
that we know that we are capable of achieving. They say fusion 
energy is the fuel of the future, and it always will be. Well, 
the fact is we need something that we're going to invest in 
that actually is foreseeable that we are going to be able to 
achieve and not a dream.
    And so, number one, I will read your report. I'm anxious. I 
think nuclear energy has a vital role to play. We are going to 
eventually run out--humankind will run out of fossil fuel 
eventually. It may not make sense right now, but even the 
things we're talking about are 10 to 20 years down the road, 
and if we're doing that, what's the price of gas and oil going 
to be like then? Well, I think it will be--it will totally 
justify the expenditure of developing a new generation of 
nuclear power. We need a new generation. We need to deal with 
the waste from the last generation.
    And we should not--again, Mr. Chairman, one of the things 
I'm really worried about is that we do have profitmaking as 
part of the equation as to what direction we go. But the people 
that are thinking about profitmaking are not thinking at all 
about long-term effects on safety 100 years from now. They 
could care less about that. So it's up to our scientists, our 
engineers, and yes, elected representatives to take these 
things into consideration. We appreciate the guidance you've 
given us.
    Chairman Weber. Well, we've had a request for round two 
from my good friend from California, and since apparently I 
need to recompense with him over my comments, we're going to do 
that. And it helps me, too, Jerry. I've got some questions, 
too, so with your indulgence, this is for Dr. Wagner, Mr. 
Bowers, and Mr. McGinnis. In you all's prepared testimony, you 
all emphasized the need for DOE to support research that will 
make high-assay low-enriched uranium. Are you calling that 
HALEU? What are you----
    Mr. McGinnis. HALEU or----
    Chairman Weber. HALEU? Okay.
    Mr. McGinnis. High-assay LEU----
    Chairman Weber. Okay. Perfect.
    Mr. McGinnis. --different terms of art.
    Chairman Weber. Fuel available for advanced reactor 
technologies. So what is HALEU fuel, and why is it needed to 
advance the next generation of reactor technologies? And, Mr. 
Bowers, we'll start with you.
    Mr. Bowers. Thank you very much. So we start with a 
definition, right? So all existing light-water reactors operate 
on fuel, enriched uranium that has enrichment of less than 5 
percent, 4.8, 5.1, and down from there. The military needs for 
uranium start as well as some test reactors within the United 
States start at 20 percent and go up, so there is this no man's 
land, this range between 5 percent and 20 percent enrichment 
that's called high-assay low-enriched uranium. Several of the 
advanced reactors are looking to use high-assay LEU for their 
reactors that enables higher burnups, improved efficiencies, 
longer periods of time between outages, so there are a lot of 
benefits to using it.
    Chairman Weber. So why hasn't that been done heretofore?
    Mr. Bowers. Uranium demand for product has been driven by 
what the market currently requires, which is light-water 
reactors at five percent, so no one's going to build a factory 
to make something that makes eight percent if no one's going to 
buy it. And the needs for the test reactors is relatively 
small, and so that's been able to be supported by DOE, Y-12, 
and other sources within the United States. I'll stop there.
    Chairman Weber. Mr. McGinnis?
    Mr. McGinnis. Well, I don't want to add more to his 
technically sound description, so let me just describe briefly 
the demand. There is no high-assay LEU commercially available 
on the planet right now. We--the majority of the new----
    Chairman Weber. Not even for testing?
    Mr. McGinnis. There was----
    Chairman Weber. Oh, you're saying commercially available?
    Mr. McGinnis. Commercially available.
    Chairman Weber. Okay.
    Mr. McGinnis. So no U.S. company that is looking to bring 
in their reactor, right now, they have no high-assay LEU fuel. 
They have no fuel for their design. And that creates a great 
risk. The closer they get to trying to deploy, they can't 
sustain that risk not knowing there is none. That doesn't mean 
that enrichment facilities can't move forward when they see 
enough of a market, a custard demand, but we have a chicken and 
the egg here.
    Chairman Weber. Is that a short startup time?
    Mr. McGinnis. Not that short. To be able to get this 
established with the high-assay LEU, you're talking a couple 
years at least, so it's not going to be immediate. However, 
that's where I think the Department of Energy is in a unique 
position to help spur and support at least the laboratory scale 
if not a little bit larger scale for the demonstration of high-
assay LEU for these new reactors to provide the confidence. We 
have microreactors. Many people may not realize this. They may 
be coming in as early as 2021, 2022. These are reactors that 
will need high-assay LEU so----
    Chairman Weber. Are you calling SMRs microreactors?
    Mr. McGinnis. Microreactors are smaller than SMRs, so 
microreactors, depending on the definition--in general it's 1 
to 5 megawatts electric. Some define it up to 50 megawatt, but 
in truth, most of the microreactors are about 1 to 5 megawatt 
electric. But 1 megawatt electric, that supplies power to 1,000 
homes, so it's not insignificant. So we have a very near-term 
need for the ability to provide confidence to these new 
innovators in markets that high-assay LEU will be available 
when needed.
    Chairman Weber. Okay. Thank you. Dr. Wagner?
    Dr. Wagner. I would just add that some of the accident-
tolerant fuel concepts for the existing light-water reactor 
fleet are also looking at enrichment above 5 percent, more in 
the lower range, 5 to 8 percent, so some of those concepts also 
have a need here for this fuel as well, whereas the advanced 
reactors are primarily looking at right close to 28 percent. 
With the support from the Department, we are actually taking 
several steps, but we need to do more. Some of that is 
initially recovering high-enriched uranium from spent fuel such 
as our EBR-II fuel and----
    Chairman Weber. And that's what France does?
    Dr. Wagner. No, France reprocesses commercial light-water 
reactor fuel, so five weight percent and below. So what we're 
doing is we're recovering the uranium from our old EBR-II spent 
fuel and down-blending it to 20 percent, so there are some 
sources there for the very near term that might support one of 
the microreactors, for example, but we've got to get a longer 
supply out. There's other opportunities to increase that in 
terms of recovery from other spent fuel sources, but long-term, 
we'll need an enrichment capability in this range.
    Chairman Weber. Thank you. With your indulgence, Mr. 
McNerney, I'm going to ask Mr. Bowers one more technical 
question.
    You talked about systems that can shut themselves down. You 
evacuate the helium, you remove off the coolant, and then you 
watch the system as it basically self-regulates. How in the 
world does it do that?
    Mr. Bowers. I did start out by saying I'm an engineer, not 
a physicist, but I can take a stab at it.
    Chairman Weber. Okay.
    Mr. Bowers. Which is that within the uranium there are 
what's called resonances, and in these resonances at certain 
temperatures, rather than emitting neutrons, the uranium 
absorbs the neutron. So when you get to a particular 
temperature, you've got neutrons being absorbed instead of 
being expended, and that's basically what fuels the reaction.
    Chairman Weber. So that's not an implosion on itself.
    Mr. Bowers. Yes.
    Chairman Weber. What happens when they absorb those 
neutrons?
    Mr. Bowers. It returns to a more stable state, and the 
temperature goes down within the----
    Chairman Weber. Do you have a temperature----
    Mr. Bowers. --core.
    Chairman Weber. --range for us? Do you know what that 
temperature range is?
    Mr. Bowers. Is between 1,000 and 1,100 degrees centigrade. 
Our reactor operates around 900 degrees C----
    Chairman Weber. Okay.
    Mr. Bowers. --and the outlet temperature on the helium is 
approximately 750 degrees C.
    Chairman Weber. And time frame, is that 15 minutes, 15 
hours? What's the time frame?
    Mr. Bowers. You know, a cycle like that is predicted to be 
on the order of 25 to 35 hours, and so each day or two days 
you'd see it cycle up and cycle back down again, and it would 
continue in this kind of state for weeks if necessary until 
powers was returned and you could----
    Chairman Weber. So you restore it to arrest that cycle for 
lack of a better term or to restore it to its original----
    Mr. Bowers. To arrest the cycle, insert the control rods is 
the way that we would accomplish that----
    Chairman Weber. Okay.
    Mr. Bowers. --and we actually have in our particular 
design, two separate banks of control rods, one for operation 
and trimming performance and the other for shutdown.
    Chairman Weber. Well, I want to ask you why that is, but I 
won't, so the gentleman from California----
    Mr. Bowers. Defense in depth.
    Chairman Weber. The gentleman from California is recognized 
for his questions.
    Mr. McNerney. Well, I thank the Chairman. And the Chairman 
will be interested to learn perhaps that our colleague Mr. 
Flores and I introduced a bill called the Advanced High-Assay 
Low-Enriched Uranium Act, H.R. 6140, in the Energy and Commerce 
Committee, and it was passed out of committee to enhance the 
cycle of producing high----
    Chairman Weber. This session?
    Mr. McNerney. Yes, this session, so that's--it was going to 
be taken up on the Floor this week, but for some reason it was 
pulled. And so I want to talk a little bit more about that. 
Thank you for carrying the water on that for me.
    Mr. Bowers, you said, in your testimony, that by 2023 we'd 
have to have fuel ready for these reactors. What role do you 
see the private industry can play in establishing this supply 
chain?
    Mr. Bowers. Supply chain of the high-assay LEU?
    Mr. McNerney. Yes, sir.
    Mr. Bowers. So to recognize that where X-energy intends to 
play is fuel fabrication, which means high-assay low-enriched 
uranium comes into our facility in the form of an oxide and 
then we use that to create kernels and particles, et cetera, 
that are then pressed into the form that we require. So it's 
like a raw material to us. And while--if we were--the people 
today that have the capability of generating low-enriched 
uranium is URENCO in New Mexico, and they are the only producer 
today or what's referred to as an enricher in the United 
States.
    In terms of where else I could--if the question is where 
could I in terms of executing my business plan--get high-assay 
low-enriched uranium----
    Mr. McNerney. Well, the question really is what role do you 
think that private industry can play in establishing that 
supply chain?
    Mr. Bowers. So I'll say this. There are companies in the 
United States--Centrus Energy is one that once upon a time had 
significant enrichment capability. They still have the 
engineering and knowledge and understanding of what it takes to 
construct and operate an enrichment facility. And so private 
industry is prepared to do that. I think this again falls into 
that chicken-or-the-egg element, which is what is the demand 
for low-enriched uranium between 5 and 20 percent, and if that 
demand is evident and orders are ready to be placed, a company 
will step forward and make that investment. But somehow, we 
have to kickstart or jumpstart that industry.
    Mr. McNerney. And the Federal Government can be helpful in 
that?
    Mr. Bowers. Very helpful.
    Mr. McNerney. Thank you.
    Mr. Bowers. Thank you.
    Mr. McNerney. Mr. Bowers, I was going to read this question 
because it's a little complicated, but regarding Nuclear 
Regulatory Commission licensing, the Committee has repeatedly 
received testimony over the past several years that the current 
licensing framework is not suited to efficiently assess new 
generation of nuclear reactors. As you mentioned, the NRC and 
the DOE and the industry have taken some steps to modernize the 
licensing process and help alleviate some of the licensing 
cost. What specific regulatory changes would you like to see, 
and what steps can the NRC and other agencies make that would 
help this process become more efficient and quicker?
    Mr. Bowers. I think there's broad agreement on the changes 
that the NRC intends to put in place and recognition from 
industry of what those benefits would be. During my testimony, 
I mentioned the licensing modernization program, and the goal 
of that program is to establish a different way of looking at 
reactors and how we license them. I like to use the example of 
a volume control, and so there's a requirement of--I've got my 
car, right? I want to listen to the radio. I need a volume 
control, and so the requirement is I need to be able to control 
the volume. The way the NRC would look at that requirement is 
that it would say the knob needs to be 1 inch in diameter and 
needs to be painted black and it needs to have white numbering 
on it, so very prescriptive in terms of how the requirement is 
met. And that works when every reactor is based upon the same 
technology, i.e., light-water reactors.
    As we move forward and we have different technologies, 
molten salt, high-temperature gas, fast reactors that the NRC 
will need to regulate, they have to come up with a different 
paradigm as to how they will ensure safety of those systems. 
And so moving to something called risk-informed performance-
based assessment or analysis is the framework that they're 
looking to move to. And they're in the process of doing that.
    We have just started our pre-application engagement with 
the NRC, and so it's a little early on in the process. We've 
had a couple meetings with them, very anxious to move forward, 
kick the tires with the NRC and help them understand our 
technology and help them with that new framework.
    Mr. McNerney. Thank you. Mr. Chairman, I'll yield back to 
you.
    Chairman Weber. Thank you, sir.
    The gentleman from California is recognized for his 
questions.
    Mr. Rohrabacher. Thank you.
    And, Dr. Parsons, in your prepared testimony you discussed 
creating a site where companies can deploy prototype reactors. 
And let me just note that we have--with your leadership--
provided legislation, H.R. 431, which is Chairman Weber's bill, 
and that's about to be signed into law. And we appreciate your 
leadership, Mr. Chairman, and your guidance on this, so that--I 
think we've done--we've taken a step in the right direction. I 
would imagine that's part of your testimony today.
    Dr. Parsons. Indeed, we thank you for that.
    Mr. Rohrabacher. Okay. Let's look at this. Again, I don't 
want to dwell on the fact that nuclear energy I believe is 
inherently dangerous, but we have to do certain things that are 
dangerous in order to succeed in achieving certain goals for 
civilization. The Chairman was asking about how these things 
could be determined in case of an emergency, it would shut down 
that, and, Mr. Chairman, I think HAL will make all those 
decisions for us. You remember HAL?
    Chairman Weber. That was quite some odyssey, wasn't it?
    Mr. Rohrabacher. HAL in the Space Odyssey 2001 was the 
computer got out of control. And we have already had, some 
people suggest--Elon Musk for one of them--that if we go too 
far down the road of everything robotic and letting them make 
decisions, perhaps wrong decisions will be made that are beyond 
our comprehension today. So as we move down that direction, 
obviously whatever system we put in place will have to have a 
computer systems that will deal with the new challenges that 
are brought up.
    Again, I would just suggest--and I don't have the 
engineering background, but from what I have heard today and 
from what I have gleaned from other hearings that we've had is 
that light-water reactors are inherently more dangerous than 
what we are capable of building in terms of the non-light-water 
reactors. Mr. Bowers, is that correct?
    Mr. Bowers. I would phrase it a different way, which is 
that the light-water reactors require active safety systems to 
maintain safety, and the advantage that the--and these are 
generation 2 and generation 3 reactors. The advantage that the 
generation 4 reactors bring is that rather than having active 
safety systems that require human intervention, you have 
passive safety systems that do not require a human to ensure 
safety of the system. And I'll let Mr. McGinnis----
    Mr. Rohrabacher. Well, inherently, do we not have more 
leftover waste from light-water reactors than we would from the 
high-temperature gas-cooled reactor, for example?
    Mr. Bowers. I'm going to say that no free lunch. You know, 
we create nuclear spent fuel the same way that a light-water 
reactor does. Ours is packaged a little different. Rather than 
it being in control rods, we're in pebbles.
    Mr. Rohrabacher. Well, the question isn't length of time. 
The question is amount of waste that we have to deal with. I am 
under the impression that light-water reactors will produce 
more nuclear waste stuff that we deal with as compared to high-
temperature gas-cooled reactors, for example. Is that correct?
    Mr. Bowers. I'm going to pass on that if I may and get back 
to you with an answer. I'm not a spent-fuel expert, so forgive 
me.
    Mr. Rohrabacher. But go right ahead.
    Mr. McGinnis. Thank you very much. I would just love to 
have had some of our great innovators in NuScale and Holtec and 
frankly some of the other companies here that are working on 
game-changing both non-light-water and light-water reactors. 
Literally the one that is progressing with partnership with 
Idaho National Lab, UAMPS, municipal utility in the Utah region 
with a number of States, this design is going through the NRC 
now. They're very conservative at the NRC, and it's a light-
water design.
    And so I would ask that if we could at least open the 
spectra a bit and give this design an opportunity to see 
whether NRC validates that this light-water small modular 
reactor design can safely shut down on its own. And they've 
already validated that.
    Mr. Rohrabacher. I'm more concerned about----
    Mr. McGinnis. Yes.
    Mr. Rohrabacher. --also the amount of nuclear waste. We 
have a storage facility that's being put at San Onofre right in 
the middle of a huge residential--I'm talking about millions of 
people live around San Onofre, including my family I might add. 
And if there is a system that will produce less nuclear waste 
at the end of the process, we should go in that direction, and 
especially if we can build a system that eats some of the waste 
that's already been given to us and eats some of that as fuel. 
So I would hope that we go and get really serious in terms of 
not just planning how to produce electricity but how to deal 
with that waste as part of the equation.
    Thank you very much, Mr. Chairman.
    Chairman Weber. Thank you, sir. I want to thank the 
witnesses for their valuable testimony and the Members for 
their questions. The record will remain open for two weeks for 
additional comments and written questions from the Members. The 
hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Mr. Edward McGinnis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Harlan Bowers

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
